No. __-___

IN THE

Supreme Court of the United States
>>>>
DOMENICO ANASTASIO,
Petitioner,
v.

UNITED STATES

OF

AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

PETER J. TOMAO, ESQ.
600 Old Country Road, Suite 328
Garden City, New York 11530
516-877-7015
ptomao@tomaolaw.com
CJA Counsel to the Petitioner

November 16, 2020

No. ______
IN THE
UNITED STATES SUPREME COURT
__________________________
DOMENICO ANASTASIO,

Petitioner,
-vUNITED STATES OF AMERICA,

Respondent.
__________________________

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
__________________________

QUESTION PRESENTED
Whether the United States Court of Appeals for the Second
Circuit erred by affirming the judgment of conviction and sentence
pronounced by the United States District Court for the Southern
District of New York on Count One of the Superseding Indictment
charging a RICO Conspiracy because it failed to properly apply the
standard set by this Court to determine whether there was sufficient
evidence to show that a defendant was guilty of RICO Conspiracy.
i

TABLE OF CONTENTS
Page

QUESTION PRESENTED

i

TABLE OF CONTENTS

ii

TABLE OF AUTHORITIES

iv

OPINION BELOW

1

STATEMENT OF JURISDICTION

1

STATUTORY PROVISIONS INVOLVED

2

INTRODUCTION AND STATEMENT OF THE CASE

4

REASON FOR GRANTING THE PETITION

12

ARGUMENT

12

CERTIORARI SHOULD BE GRANTED BECAUSE THIS CASE
INVOLVES AN IMPORTANT MATTER, NAMELY WHETHER
PROOF OF RICO CONSPIRACY REQUIRES EVIDENCE THAT
THE DEFENDANT PARTICIPATED IN THE CONSPIRACY
WITH INTENT TO ACCOMPLISH THE OBJECTIVES OR TO
ASSIST OTHER CONSPIRATORS IN ACCOMPLISHING ITS
OBJECTIVES, OR WHETHER MERE KNOWLEDGE OF THE
PURPOSES OF THE CONSPIRACY IS SUFFICIENT
CONCLUSION

16

FOR ALL OF THE FOREGOING REASONS, WE
RESPECTFULLY URGE THIS COURT TO GRANT A
WRIT OF CERTIORARI TO REVIEW THE JUDGMENT
OF THE UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK AND THE
OPINION AND ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT
AFFIRMING PETITIONER’S CONVICTION
ii

APPENDICES
Appendix A:
A1
Opinion and Order of the United States Court of Appeals
for the Second Circuit as amended September 1, 2020, which is
published at United States v. Delgado, 972 F.3d 63 (2d Cir. 2020)
Appendix B:
Redacted Indictment filed September 5, 2014

A30

Appendix C:
Excerpts of Trial Transcript in United States v. Matthew Smith,

A65

Jonathan Delgado, Ismael Lopez and Domenico Anastasio,

Docket 09 CR 0331 (RJA), United States District Court for the
Western District of New York, February 1, 2018
Appendix D:
Excerpts of Sentencing Transcript in United States v. Domenico
Anastasio, Docket 09 CR 0331 (RJA), United States District
Court for the Western District of New York, February 1, 2018

A99

Appendix E:
Judgment of the United States District Court, Western District
of New York, dated February 7, 2018

A100

iii

TABLE OF AUTHORITIES
CASES

PAGE

Smith v. United States, 568 U.S. 106 (2013)

13

United States v. Arrington, 941 F.3d 24 (2d Cir. 2019)

13, 15

United States v. Delgado, 972 F.3d 63 (2d Cir. 2020)

passim

United States v. Zemlyansky, 908 F.3d 1 (2d Cir. 2018)

14

FEDERAL STATUTES
Title 18, United States Code, Section 2

5

Title 18, United States Code, Section 1959

2

Title 18, United States Code, Section 1959(a)(1)

5

Title 18, United States Code, Section 1959(a)(2)

5

Title 18, United States Code, Section 1962

3

Title 18, United States Code, Section 1962(d)

4, 5, 13

Title 18, United States Code, Section 1963(a)

4, 5

Title 28, United States Code, Section 1254(1)

1

SUPREME COURT RULES
Rule 10

12

Rule 10(a)

1

iv

Rule 13

1

Rule 13(1)

1

Rule 13(3)

1

v

OPINION BELOW
The Judgment and Opinion of the United States Court of Appeals
for the Second Circuit in United States v. Jonathan Delgado, Matthew

Smith, Ismael Lopez, Domenico Anastasio, Docket Nos. 15-1453-cr (L),
18-328-cr (Con), 18-369-cr (Con), 18-421-cr (Con), as amended on
September 1, 2020, which is published at 972 F.3d 63 (2d Cir. 2020),
appears as Appendix A of this petition (A11-29).
STATEMENT OF JURISDICTION
Jurisdiction of this Court is invoked under Title 28, United
States Code §1254(1) and predicated upon the entry of a decision by a
United States court of appeals in conflict with the decision of this Court,
and Rules 10(a) and 13 of this Court’s rules.
The Opinion and Order of the Court of Appeals was entered on
September 1, 2020. This petition was filed within ninety days of that
date. U.S. Sup. Ct. Rule 13(1) and (3).

“A” followed by a number refers to a page in the Appendix to this
Petition
1

1

STATUTORY PROVISIONS INVOLVED
Title 18, United States Code, Section § 1959
(a) Whoever, as consideration for the receipt of, or as consideration for a
promise or agreement to pay, anything of pecuniary value from an
enterprise engaged in racketeering activity, or for the purpose of gaining
entrance to or maintaining or increasing position in an enterprise
engaged in racketeering activity, murders, kidnaps, maims, assaults
with a dangerous weapon, commits assault resulting in serious bodily
injury upon, or threatens to commit a crime of violence against any
individual in violation of the laws of any State or the United States, or
attempts or conspires so to do, shall be punished—
(1) for murder, by death or life imprisonment, or a fine under this title,
or both; and for kidnapping, by imprisonment for any term of years or for
life, or a fine under this title, or both;
(2) for maiming, by imprisonment for not more than thirty years or a fine
under this title, or both;
(3) for assault with a dangerous weapon or assault resulting in serious
bodily injury, by imprisonment for not more than twenty years or a fine
under this title, or both;
(4) for threatening to commit a crime of violence, by imprisonment for not
more than five years or a fine under this title, or both;
(5) for attempting or conspiring to commit murder or kidnapping, by
imprisonment for not more than ten years or a fine under this title, or
both; and
(6) for attempting or conspiring to commit a crime involving maiming,
assault with a dangerous weapon, or assault resulting in serious bodily
injury, by imprisonment for not more than three years or a fine [of] under
this title, or both.
2

(b) As used in this section—
(1) “racketeering activity” has the meaning set forth in section 1961 of
this title; and
(2) “enterprise” includes any partnership, corporation, association, or
other legal entity, and any union or group of individuals associated in
fact although not a legal entity, which is engaged in, or the activities of
which affect, interstate or foreign commerce.
Title 18, United States Code, Section § 1962
(a) It shall be unlawful for any person who has received any income
derived, directly or indirectly, from a pattern of racketeering activity or
through collection of an unlawful debt in which such person has
participated as a principal within the meaning of section 2, title 18,
United States Code, to use or invest, directly or indirectly, any part of
such income, or the proceeds of such income, in acquisition of any interest
in, or the establishment or operation of, any enterprise which is engaged
in, or the activities of which affect, interstate or foreign commerce. A
purchase of securities on the open market for purposes of investment,
and without the intention of controlling or participating in the control of
the issuer, or of assisting another to do so, shall not be unlawful under
this subsection if the securities of the issuer held by the purchaser, the
members of his immediate family, and his or their accomplices in any
pattern or racketeering activity or the collection of an unlawful debt after
such purchase do not amount in the aggregate to one percent of the
outstanding securities of any one class, and do not confer, either in law
or in fact, the power to elect one or more directors of the issuer.
(b) It shall be unlawful for any person through a pattern of racketeering
activity or through collection of an unlawful debt to acquire or maintain,
directly or indirectly, any interest in or control of any enterprise which is
engaged in, or the activities of which affect, interstate or foreign
commerce.
(c) It shall be unlawful for any person employed by or associated with any
enterprise engaged in, or the activities of which affect, interstate or
3

foreign commerce, to conduct or participate, directly or indirectly, in the
conduct of such enterprise’s affairs through a pattern of racketeering
activity or collection of unlawful debt.
(d) It shall be unlawful for any person to conspire to violate any of the
provisions of subsection (a), (b), or (c) of this section.
Title 18, United States Code, Section § 1963(a)
Whoever violates any provision of section 1962 of this chapter [shall be
fined under this title or imprisoned not more than 20 years (or for life if
the violation is based on a racketeering activity for which the maximum
penalty includes life imprisonment), or both …
INTRODUCTION AND
STATEMENT OF THE CASE
Petitioner Domenico Anastasio respectfully requests that a writ of
certiorari issue to review the Order and Judgment dated September 1,
2020 (Appendix A), entered by the United States Court of Appeals for the
Second Circuit which affirmed the judgment of conviction entered against
him on February 1, 2018, in the United States District Court for the
Western District of New York.
This petition for certiorari asks the Court to review the decision of
the Second Circuit which improperly expands the elements to RICO
conspiracy to criminalize what is at most mere presence and knowledge
of the gang’s plan but shows no agreement to bring about its ends.
4

The instant petition results from the judgment entered against
Petitioner Anastasio following a jury trial which convicted him of one
count of the RICO conspiracy in violation of 18 U.S.C. §§ 1962(d) and
1963(a) and two counts of VICAR murder in violation of 18 U.S.C. §§
1959(a)(1) and 2. The district court sentenced Petitioner Anastasio to Life
on the RICO conspiracy and mandatory Life sentences on the VICAR
murders. The Second Circuit reversed the VICAR convictions but
affirmed the RICO conspiracy conviction and remanded the case for
resentencing.
Petitioner Anastasio’s conviction resulted from a five week joint
jury trial. He and his co-defendants at trial, Jonathan Delgado, Matthew
Smith and Ismael Lopez, were alleged to be members of a RICO
enterprise referred to as the “10th Street Gang” in Buffalo, New York.
The indictment charged Petitioner Anastasio with One Count of the
RICO conspiracy in violation of 18 U.S.C. §§ 1962(d) and 1963(a) and two
VICAR murder offenses in violation of 18 U.S.C. §§ 1959(a)(1) and 2 (A3950, A58-60). The only overt acts in the RICO conspiracy naming
Petitioner Anastasio related to VICAR murder charges which the Second
Circuit found were not proven (A43-44). The indictment did NOT charge
5

Petitioner Anastasio with the substantive RICO violation (A50-58) or
with participating in the narcotics conspiracy (A60-61).
The trial record included the testimony from more than 50
witnesses, including ten members of the 10th Street Gang who had
earlier pleaded guilty and cooperated with the government (the
“Cooperators”).2
Viewing the record, as we must, most favorably to the government,
the record showed that Petitioner Anastasio, on occasion, was aware of,
but did not participate in, the illegal activities of the 10th Street Gang.
The trial evidence against Petitioner Anastasio focused on his
presence at various locations on April 16 and 17, 2006. Prior to that time,
Petitioner Anastasio had socialized with members of 10th Street Gang.
The gang, which was comprised of adolescents and young adults who
lived in the vicinity of 10th Street in the West Side of Buffalo, New York,
lacked any formal structure, membership rules

or leadership. The

members engaged in various criminal activities including dealing in

The ten Cooperators were: (1) Sam Thurmond, (2) Michael CorchadoJamieson, (3) Derrick Yancey, (4) Christopher Pabon, (5) Jimmy
Sessions, (6) Jimmarlin Sessions, (7) Jairo Hernandez, (8) Kyle Eagan,
(9) Douglas Harville, and (10) Nicholas Luciano.
2

6

controlled

substances

including

heroin,

cocaine,

crack

cocaine,

marijuana, and ecstasy from street corners, houses, and a park located
within its territory. The members of the gang protected the gang’s
territory of the gang from encroachment by rival gangs (A85). The 7th
Street Gang, which operated in nearby neighborhoods, was one of the 10th
Street Gang’s main rivals (A65).
The trial evidence concerning Petitioner Anastasio focused on April
16 and 17, 2006, when tensions between the gangs culminated in the
shooting of the brother of a member of the 10th Street Gang and the
shooting murders of two individuals near a residence associated with the
7th Street Gang.
On April 16, 2006, while Petitioner Anastasio, who was then 18,
was hanging out near a convenience store preparing to go on a picnic in
the park, several armed 7th Street members drove by and opened fire on
the group, striking co-defendant Delgado’s younger brother, Robert
Sanabria, in the stomach. (A75-78, A82). While an ambulance
transported Mr. Sanabria to a near-by hospital, a crowd, including
Petitioner Anastasio, member of the 7th Street Gang and others discussed
the shooting, Mr. Sanabria’s condition and seeking revenge (A8-9, A86).
7

Although Petitioner Anastasio was identified as being in this group,
there was no testimony that he engaged in any planning regarding ways
to seek revenge.
While the group was in the park, members attacked a woman and
a man whom some of the group suspected of being a member of the 7 th
Street Gang. The beating lasted about 90 seconds. The evidence showed
that Petitioner Anastasio was present but not that he participated in it.
Only one witness, Corchado, testified that Petitioner Anastasio was part
of the group which “jumped” the victims. However, since Cooperator
Corchado admitted that he could not see what happened, there is no
evidence that Petitioner Anastasio participated in the beating (A79-80).
Cooperators Thurmond and Harville, who participated in the beating or
observed it, did not testify that Petitioner Anastasio was one of the
assailants (A68, A86). As a result, there was no evidence to show that
Petitioner Anastasio was more than present at the time of this assault.
Following this incident, the group went to a nearby apartment
where Thurmond lived with his brother, James Foxworth. There, Delgado
told those present (including Anastasio) that they needed to find guns to
use to attack the 7th Street Gang (A81). Petitioner Anastasio did not
8

provide any guns. At most, the evidence showed that he attempted
without success to buy back a shotgun which he had sold to a member of
an allied gang, known as the Zolo Boys (A9-10).
When co-defendant Smith identified the location of suspected
members of the 7th Street Gang, the people with guns drove to the
location in two vehicles. Petitioner Anastasio was not present. At the
location, gang members fired approximately 50 bullets, killing two
innocent bystanders, and injuring four others (A10-11).
The only other specific evidence regarding Petitioner Anastasio’s
alleged role in the 10th Street Gang was his presence at a memorial
service for James Foxworth in which he allegedly displayed a handsign
associated with the 10th Street Gang (A67). However, displaying a 10th
Street Gang handsign does not show that he was a member of a
racketeering enterprise. This is like saying that every fan who purchases
a jersey would be a member of the team. Self-identification with a group
does not show that a person agreed with that group’s illegal activity.
The Second Circuit ruled that Petitioner Anastasio was guilty of
conspiracy because other gang members “knew he possessed firearms”
(A8). However, none of the cooperating witnesses testified that Petitioner
9

Anastasio provided them with firearms to use in connection with any
crimes.
Other evidence of Petitioner’s alleged role in the conspiracy is even
more tenuous. For example, while evidence showed that Petitioner
Anastasio possessed firearms at several times, there was no evidence
that he used them in any crimes or provided them to others for that
purpose.
Cooperator Thurmond testified that Petitioner Anastasio had a .25
caliber handgun, but did not testify that Petitioner Anastasio “stashed”
it in the park for use by gang members (A66). Similar testimony was
provided by Cooperators Corchado and Nicholas Luciano (See A70-73,
A87-88). Likewise, while Petitioner Anastasio owned a .20 gauge shotgun
which he had brought to the park and later sold to one of the Zolo Boys,
there was no evidence that he provided this or any other weapon to
anyone else in gang activity.
The other roles that Petitioner Anastasio allegedly played in the
gang was similarly amorphous. For example, there was no direct evidence
of marijuana sales. The only evidence was Cooperator Sessions’

10

testimony that he purchased marijuana from Anastasio for his own use
on occasion (A84).
Similarly, while Cooperator Corchado testified that Petitioner
Anastasio acted as a lookout there was no any indication when or how
that occurred. (A69).
The trial judge charged the jury that to find Petitioner Anastasio
guilty of the RICO conspiracy, it had to find, inter alia, that he knowingly
participated in the conspiracy with intent to accomplish the objectives or
to assist other conspirators in accomplishing its objectives (A92). The jury
was not required to make any specific findings regarding to Petitioner
Anastasio other than those related to the VICAR murders (A94).
The jury returned a verdict against Petitioner Anastasio finding
him guilty of the RICO Conspiracy and the two VICAR murders (A96,
A97-98).
In denying, Petitioner Anastasio’s Rule 29 motion, the trial judge
cited involved the events at the apartment and his display of the gang
signs years later (See A8).

11

On February 1, 2018, the district judge sentenced Petitioner
Anastasio to life on the RICO conspiracy count and mandatory sentences
of life without release on each of the VICAR counts (A99).
In United States v. Delgado, 972 F.3d 63 (2d Cir. 2020), the Second
Circuit reversed the judgment against Petitioner Anastasio on the
VICAR murder counts as well as the special findings relating to the
murders but let stand his conviction on the RICO Conspiracy Count.
REASON FOR GRANTING THE PETITION
ARGUMENT
CERTIORARI SHOULD BE GRANTED BECAUSE THIS
CASE INVOLVES AN IMPORTANT MATTER, NAMELY
WHETHER PROOF OF RICO CONSPIRACY REQUIRES
EVIDENCE THAT THE DEFENDANT PARTICIPATED IN
THE CONSPIRACY WITH INTENT TO ACCOMPLISH THE
OBJECTIVES OR TO ASSIST OTHER CONSPIRATORS IN
ACCOMPLISHING ITS OBJECTIVES, OR WHETHER
MERE KNOWLEDGE OF THE PURPOSES OF THE
CONSPIRACY IS SUFFICIENT
The standard which the Second Circuit applied to affirm Petitioner
Anastasio’s conviction for RICO conspiracy unduly expanded the
standard set by this Court. Under the Second Circuit’s formulation in
this case, mere knowledge of the objects of a conspiracy would suffice. We
respectfully submit that this case presents an important matter
warranting the grant of certiorari. U.S. Sup. Ct. Rule 10.
12

The Court has held that to convict a defendant of a RICO
conspiracy, the Government must prove beyond a reasonable doubt that
the conspiracy existed and that the defendant knowingly and willfully
participated in the agreement. Smith v. United States, 568 U.S. 106, 110
(2013).
Viewing the evidence as we must most favorably to the government,
we concede that there was sufficient evidence to show that the conspiracy
existed based on the testimony of the Cooperators, but not that Petitioner
Anastasio was a member of it, that is, he agreed to participate in the
criminal activity.
The Second Circuit reduced that element to mere knowledge. In
this case, that court held that “The conspiracy provision of RICO, 18
U.S.C. § 1962(d), proscribes an agreement to conduct or to participate in
the conduct of an enterprise's affairs through a pattern of racketeering
activity." United States v. Delgado, 972 F.3d at 79 citing United States

v. Arrington, 941 F.3d 24, 36 (2d Cir. 2019) (emphasis added.)
Under that standard mere knowledge would suffice to prove
membership in a conspiracy. The Second Circuit itself, in other cases, has
held that to prove a RICO conspiracy, the evidence must show the
13

defendant's knowing engagement in the scheme with the intent that its
overall goals be effectuated. See United States v. Zemlyansky, 908 F.3d
1, 11 (2d Cir. 2018) cited at United States v. Delgado, 972 F.3d at 81.
However, in this case it applied a mere knowledge test.
In the instant case, there is insufficient evidence that Petitioner
Anastasio participated in the RICO conspiracy. There was no direct
evidence that Petitioner Anastasio sold marijuana as part of the RICO
conspiracy. While Cooperator Sessions testified that he purchased
marijuana for his own personal use from Petitioner on one occasion (A84),
there was no evidence that such a sale was a part of the criminal
enterprise. Notably, Cooperator Sessions said that the sale occurred at
the apartment which Petitioner Anastasio shared with his family and not
in the park or other gang territory (Id.). Likewise, while Cooperator
Corchado testified that Petitioner Anastasio acted as a look out, he did
not indicate when or how that occurred (A69). Corchado also claimed that
Petitioner Anastasio “stashed” firearms at the park and at another
location, i.e., an abandoned house on 10th Street, but there was no
indication that he did so for protection of the gang during drug deals
there (A70-74).
14

Finally, the Second Circuit also applied the knowledge standard to
find that Petitioner Anastasio’s actions at the Caroline Street apartment
prior to and following the murders evinced his membership in the RICO
conspiracy. The Court of Appeals stated that:
Although Anastasio's actions at the apartment where the
murders were planned did not render him an accomplice to
the murders, his conduct there certainly provides a
reasonable basis for inferring that Anastasio knew about, and
agreed to, "the general criminal objective" of the 10th Street
Gang.
(A26 citing Arrington, 941 F.3d at 36-37). However, the Second Circuit
found that Petitioner Anastasio did nothing to further the VICAR
murders or contribute toward their success:
Although Anastasio was present while members of the 10th
Street Gang discussed and formulated its scheme for revenge,
nothing in the record suggests that Anastasio spoke during—
much less contributed to—this planning process. Nor has the
government offered evidence that Anastasio’s mere presence
at Thurmond’s apartment, encouraged or otherwise
influenced the Gang to commit the murders. Indeed, as far as
we can tell from the record, Anastasio played no “role” in the
execution of the retaliatory shooting “beyond that of a
companion” to the shooters, and even that he did at a distance
from the shooting ... He did not, for example, supply any of the
firearms used during the shooting; provide any information
on the location of the 7th Street Gang; serve as a look-out
during the shooting; transport any of the shooters to or from
155 Pennsylvania Street; or, after the crime, help shield the
shooters from police investigation.
15

(A21-22). While the Second Circuit held that his actions were not
sufficient to prove that Petitioner Anastasio aided and abetted in the
VICAR murders, it held that his mere knowledge of the plan was a
sufficient basis from which the jury could infer that he was a member of
the RICO conspiracy. In doing so, the Second Circuit improperly
expanded the holdings of this Court that the evidence must show
agreement.

CONCLUSION
FOR ALL OF THE FOREGOING REASONS, WE
RESPECTFULLY URGE THIS COURT TO GRANT A WRIT
OF CERTIORARI TO REVIEW THE JUDGMENT OF THE
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK AND THE
OPINION AND ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCillT
AFFIRMING PETITIONER'S CONVICTION
Dated: Garden City, New York
November 16, 2020

r J. Tomao, Esq.
CJA Counsel to the Petitioner
Domenico Anastasio
600 Old Country Road, Suite 328
Garden City, NY 11530
(516) 877-7015
16

